WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.

19-999

Lewis Alan Dugan

The State of Wyoming

(Petitioiier)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
@ Please enter my appearance as Counsel of Record for all respondents.
@ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

@ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

signature A t?,s>[i? CAAiLl
Date:

?

2/12/ 20

(Type or print) Name Jenny lynn Cra'g
g Mr. g Ms. @ Mrs. g Miss

Firm Wyoming Attorney General's Office
Address 2320 Capitol Avenue

city & state Cheyenne, Wyoming
Phone (307)777-7977

zip 82002
Email jenny.craig1 @wyo.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER

IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Jonathan W. Foreman

